Nos. 20-534, 20-536
IN THE

ALL SAINTS’ EPISCOPAL CHURCH (FORT WORTH),
PETITIONER,
V.

THE EPISCOPAL DIOCESE OF FORT WORTH, ET AL.,
RESPONDENTS.
THE EPISCOPAL CHURCH, ET AL., PETITIONERS,
V.

THE EPISCOPAL DIOCESE OF FORT WORTH, ET AL.,
RESPONDENTS.
On Petitions for Writ of Certiorari
to the Supreme Court of Texas
BRIEF OF AMICI CURIAE GENERAL ASSEMBLY OF THE
PRESBYTERIAN CHURCH (U.S.A.), GENERAL SYNOD OF
THE REFORMED CHURCH IN AMERICA, GENERAL COUNCIL
ON FINANCE AND ADMINISTRATION OF THE UNITED
METHODIST CHURCH, MORAVIAN CHURCH IN AMERICA,
GENERAL SYNOD OF THE UNITED CHURCH OF CHRIST IN
SUPPORT OF PETITIONERS
Nicole Antoine
Kathleen Choi
Sarah Suwanda
COVINGTON & BURLING LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001

Mark W. Mosier
Counsel of Record
COVINGTON & BURLING LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
mmosier@cov.com
Counsel for Amici Curiae
Additional counsel listed on inside cover

i
Rev. Dr. J. Herbert Nelson, II
GENERAL ASSEMBLY OF THE
PRESBYTERIAN CHURCH
(U.S.A.)
100 Witherspoon Street
Louisville, KY 40202
Stated Clerk of Amicus Curiae General Assembly of the
Presbyterian Church (U.S.A.)
Paul Karssen
GENERAL SYNOD OF THE REFORMED CHURCH IN AMERICA
612 8th Street, S.E.
Orange City, IA 51041
Counsel for Amicus Curiae
the General Synod of the Reformed Church in America
Bryan Mills
GENERAL COUNCIL ON FINANCE AND ADMINISTRATION
OF THE UNITED METHODIST
CHURCH
1 Music Circle N.
Nashville, TN 37203
Counsel for Amicus Curiae
General Council on Finance
and Administration of The
United Methodist Church

Richard Ellis Santee, Jr.
MORAVIAN CHURCH IN
AMERICA
44 East Broad Street
Bethlehem, PA 18018
Counsel for Amicus Curiae Moravian Church in
America
Heather E. Kimmel
GENERAL SYNOD OF THE
UNITED CHURCH OF
CHRIST
700 Prospect Avenue East
Cleveland, OH 44115
Counsel for Amicus Curiae General Synod of the
United Church of Christ

ii
TABLE OF CONTENTS
TABLE OF CONTENTS ............................................ ii
TABLE OF AUTHORITIES...................................... iii
INTEREST OF AMICI CURIAE ............................... 1
INTRODUCTION AND SUMMARY OF
ARGUMENT .................................................... 4
ARGUMENT .............................................................. 7
I.

II.

The Enforceability of Trust Provisions
Is an Important, Recurring Question
That Warrants This Court’s Review. .............. 7
A.

The Split of Authority Affects All
Churches, Including Amici. .................. 8

B.

The Question Is Important
Because It Impacts Beliefs
Fundamental to a
Denomination’s Identity. .................... 14

The Court Should Reconsider the
Neutral-Principles Approach. ....................... 18

CONCLUSION ......................................................... 21

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Bethel Lutheran Church v. Nelson ex rel.
Bethel Lutheran Church,
859 N.W.2d 537 (Neb. 2015) ................................ 13
Carrollton Presbyterian Church v.
Presbytery of S. Louisiana of
Presbyterian Church (USA),
77 So. 3d 975 (La. App. 1 Cir. 2011)...................... 9
Classis of Cent. California v. Miraloma
Cmty. Church,
99 Cal. Rptr. 3d 449 (Cal. Ct. App.
2009) ......................................................... 13, 16, 17
Colonial Presbyterian Church v.
Heartland Presbytery,
375 S.W.3d 190 (Mo. Ct. App. 2012) ..................... 9
E. Lake Methodist Episcopal Church,
Inc. v. Tr. of Peninsula-Delaware
Annual Conference of United
Methodist Church, Inc.,
731 A.2d 798 (Del. 1999) ...................................... 11
Haney’s Chapel United Methodist
Church v. United Methodist Church,
716 So. 2d 1156 (Ala. 1998) ................................. 11
Harris v. Matthews,
643 S.E.2d 566 (N.C. 2007) .................................. 12

iv
Heartland Presbytery v. Gashland
Presbyterian Church,
364 S.W.3d 575 (Mo. Ct. App. 2012) ..................... 9
Hope Presbyterian Church of Rogue
River v. Presbyterian Church
(U.S.A.),
291 P.3d 711 (Or. 2012) ....................................... 10
Hosanna-Tabor Evangelical Lutheran
Church & Sch. v. E.E.O.C.,
565 U.S. 171 (2012) .............................................. 20
Jones v. Wolf,
443 U.S. 595 (1979) ...................................... passim
Kedroff v. St. Nicholas Cathedral of
Russian Orthodox Church in N. Am.,
344 U.S. 94 (1952) ................................................ 19
Our Lady of Guadalupe Sch. v.
Morrissey-Berru,
140 S. Ct. 2049 (2020) .......................................... 20
Presbyterian Church in U.S. v. Mary
Elizabeth Blue Hull Mem’l
Presbyterian Church,
393 U.S. 440 (1969) ........................................ 18, 19
Presbytery of Greater Atlanta, Inc. v.
Timberridge Presbyterian Church,
Inc.,
719 S.E.2d 446 (Ga. 2011) ................................... 10

v
Presbytery of St. Andrew v. First
Presbyterian Church PCUSA of
Starksville,
240 So. 3d 399 (Miss. 2018) ................................... 9
St. Paul Church, Inc. v. Bd. of Tr. of
Alaska Missionary Conference of
United Methodist Church, Inc.,
145 P.3d 541 (Alaska 2006) ................................. 11
Watson v. Jones,
80 U.S. 679 (1872) .......................................... 18, 19
Windwood Presbyterian Church, Inc. v.
Presbyterian Church (U.S.A.),
438 S.W.3d 597 (Tex. App. 2014)........................... 9
Other Authorities
Advisory Opinion: The Trust Clause and
Gracious Separation: Implementing
the Trust Clause for the United of the
Church, PRESBYTERIAN CHURCH
(U.S.A.) (2014),
https://www.pcusa.org/site_media/m
edia/uploads/oga/pdf/advisoryopinion_19.pdf. ............................................... 14, 15
Gen. Council on Fin. and Admin., The
Trust Clause: Questions And
Answers For United Methodists, THE
UNITED METHODIST CHURCH,
https://www.gcfa.org/media/1444/tru
st-clause-brochure.pdf.......................................... 11

vi
Kathy L. Gilbert, United Methodist
trust clause: Critical amid struggle?
UNITED METHODIST NEWS SERVICE
(Feb. 4, 2019),
https://www.umnews.org/en/news/un
ited-methodist-trust-clause-criticalamid-struggle. ...................................................... 16
PRESBYTERIAN CHURCH (U.S.A.), BOOK
OF ORDER ................................................................ 8
THE BOOK OF DISCIPLINE OF THE UNITED
METHODIST CHURCH (2016).............................. 3, 11
The Reformed Church in America, BOOK
OF CHURCH ORDER,
https://www.rca.org/about/governme
nt/book-of-church-order. ...................................... 17

1
INTEREST OF AMICI CURIAE
Amici are religious organizations and representatives who serve religious institutions and
individuals. 1 Amici support strong religious liberty
protections. Our perspective embraces free exercise
and no establishment values. We believe that deference to religious organizations’ decisions regarding
internal structure, organization, and hierarchy is
paramount to maintaining religious liberty and separation of church and state.
Amicus Curiae General Assembly of the Presbyterian Church (U.S.A.) is the highest legislative
and interpretive body of the Presbyterian Church
(U.S.A.). The Presbyterian Church (U.S.A.) is a national Christian denomination with over 1,760,000
members in more than 10,000 congregations, organized into 171 presbyteries under the jurisdiction of
16 synods. Through its antecedent religious bodies, it
has existed as an organized religious denomination
within the current boundaries of the United States
since 1706. The General Assembly is the final point
of decision in all disputes. The views expressed in
this brief are consistent with hundreds of years of
Presbyterian Church (U.S.A.) understanding of con-

Pursuant to Rule 37.6, amici affirm that no counsel for a party
authored this brief in whole or in part and that no person other
than amici or their counsel made any monetary contributions
intended to fund the preparation or submission of this brief.
Pursuant to Rule 37.3(a), all parties have consented to the filing
of this brief. Pursuant to Rule 37.2, counsel of record for all parties received timely notice of intent to file this brief.
1

2
nectional churches and the religious trust inherent
in its polity.
Amicus Curiae General Synod of the Reformed Church in America is the highest
assembly and judicatory in the Reformed Church in
America. The Reformed Church in America traces its
history in North America to 1628, and as a result is
the oldest protestant denomination in North America
with a continuous history. There are approximately
800 churches in the United States and Canada.
These churches are assembled into 47 regional units
(each called a classis), and the 47 classes are assembled into 8 regional units (each called a regional
synod). The Book of Church Order of the Reformed
Church in America provides that the General Synod
exercises “a general superintendence over the interests and concerns of the whole church” and “an
appellate supervisory power over the acts, proceedings, and decisions of the lower assemblies.” The
Book of Church Order also specifically grants to the
General Synod the exclusive authority to determine
denominational policy, and also designates the General Synod as the final judicatory for all judicial
matters that are filed at the classis or regional synod
levels.
Amicus Curiae General Council on Finance
and Administration of The United Methodist
Church (“GCFA”) is the financial and administrative arm of The United Methodist Church. Under
United Methodist polity, GCFA is the agency
charged with protecting the legal interests of the denomination. The United Methodist Church is a
worldwide religious denomination with approximately 13,000,000 members. Through its various

3
agencies, it performs mission work in more than 165
countries. The United Methodist Church has approximately 33,000 local churches and over 7,400,000
members in the United States. There are approximately 720,000 United Methodist members and
1,760 United Methodist local churches in the state of
Texas alone. United Methodist polity, as set forth in
The Book of Discipline of The United Methodist
Church (2016), does not permit the pastor or members of a local church who choose to leave the
denomination to take the local church’s real or personal property with them. This fundamental
principle is inextricably linked to other important
aspects of its polity.
Amicus Curiae Moravian Church in America
is a Protestant denomination that has stood for basic
religious principles for more than 500 years. Through
these years, the church has often put into written
form the precepts of its faith and practice in what is
known as the Covenant for Christian Living. The
Northern Province of the Moravian Church in America, headquartered in Bethlehem, Pennsylvania,
counts nearly 21,000 members in 85 congregations in
13 states in the United States and two Canadian
provinces. The Southern Province, headquartered in
Winston-Salem, North Carolina, includes nearly
16,000 members in 55 congregations.
Amicus Curiae General Synod of the United
Church of Christ is the representative body of the
denomination of the United Church of Christ, a
Protestant denomination with more than 800,000
members and nearly 5,000 churches. The General
Synod has consistently spoken on issues of religious
liberty and the separation of church and state, re-

4
solving to “share the blessings of our heritage of religious freedom, and to sustain that precious heritage
by extending the right of religious freedom to groups
with which we are not in theological agreement,” as
well as urging the restoration of religious liberty for
all, recognizing that “the United Church of Christ, a
denomination devoted to religious liberty” must
“raise its voice in protest” when religious freedom is
abrogated.
Amici hold differing views regarding religious
government, hierarchy, organization, and structure,
yet we all respect the right of religious institutions to
maintain and practice their own religious tenets, including how to structure and govern our religious
groups. Amici are committed to protecting religious
autonomy to make those decisions free from court
and state interference.
INTRODUCTION AND
SUMMARY OF ARGUMENT
“[T]he First Amendment prohibits civil courts
from resolving church property disputes on the basis
of religious doctrine and practice.” Jones v. Wolf, 443
U.S. 595, 602 (1979). Before Jones, the Court protected this First Amendment religious liberty by
requiring courts to defer to the church’s own resolution of its property disputes. But, in Jones, the Court
decided that other approaches were also permissible
under the First Amendment. According to the Court,
“a State may adopt any one of various approaches for
settling church property disputes so long as it involves no consideration of doctrinal matters, whether
the ritual and liturgy of worship or the tenets of
faith.” Id.

5
The Jones Court expressly endorsed an alternative approach that it called the “neutral-principles
approach.” Id. Under this approach, courts may adjudicate church-property disputes so long as they
apply only “neutral principles of law” and interpret
deeds and religious documents “in purely secular
terms.” Id. at 602, 604. “The primary advantages of
the neutral-principles approach,” the Court explained, “are that it is completely secular in
operation, and yet flexible enough to accommodate
all forms of religious organization and polity.” Id. at
603. Indeed, according to the Court, the neutralprinciples approach “promises to free civil courts
completely from entanglement in questions of religious doctrine, polity, and practice.” Id.
The decision below demonstrates that the neutral-principles approach has not fulfilled that
promise. State courts have taken widely divergent
approaches in deciding church-property disputes
based on purportedly neutral principles of law. As a
result, some courts still provide substantial deference to a church’s internal resolution of property
disputes, while other courts afford virtually no deference to the church’s views. But regardless of how
courts interpret Jones, one thing is apparent: The
neutral-principles approach has not allowed courts to
adjudicate church-property disputes free from entanglement in questions of religious doctrine and polity.
I. The Court should resolve the split of authority
on how to apply the neutral-principles approach to
church-property disputes. In Jones, the Court instructed churches that they could “ensure that a
dispute over the ownership of church property will be
resolved in accord with the desires of the members”

6
by adopting “appropriate reversionary clauses and
trust provisions.” 443 U.S. at 604. But in many state
courts, these trust clauses do not provide the protection that Jones intended because the courts decline
to enforce any trust clause that does not meet the
formalities of state law.
A. The issue has broad importance for all religious organizations. The petitions address the split
of authority among courts interpreting the Episcopal
Church’s trust clause. But the Episcopal Church is
not alone in this regard. The denominations of two
amici—the Presbyterian Church (U.S.A.) and The
United Methodist Church—also have trust clauses
that some state courts have enforced and others have
not. Moreover, this issue is important to all churches—regardless of whether they have trust clauses—
because courts have increasingly applied Jones’s
neutral-principles approach to broader issues of denominational governance and membership.
B. The enforceability of trust clauses is important
because those clauses reflect beliefs fundamental to a
denomination’s identity. Jones instructed churches to
adopt trust provisions to ensure how property disputes would be decided, but for many religious
groups, a trust provision is not merely a way to avoid
protracted litigation—it embodies core religious beliefs. For example, The United Methodist Church has
a trust provision that dates back to the Eighteenth
Century and to the church’s founder, John Wesley. It
embodies the church’s belief that local churches in
the denomination do not stand alone, but are connected together. When courts refuse to enforce such
provisions, they do more than simply invalidate a

7
contractual covenant. They infringe on the church’s
religious liberty.
II. The Court should reconsider the neutralprinciples approach. The Court’s endorsement of that
approach in Jones departs from its decisions both before and after Jones, which require deference on
issues of religious doctrine or polity. The neutralprinciples approach has led to much confusion regarding whether a church’s trust clause will be
enforced, and the same clause is frequently deemed
enforceable in some states but not in others. Rather
than permit this uncertainty to remain, the Court
should grant the petitions and reconsider or clarify
the neutral-principles approach.
ARGUMENT
I.

The Enforceability of Trust Provisions Is
an Important, Recurring Question That
Warrants This Court’s Review.

In Jones, the Court instructed denominations
that they could avoid judicial scrutiny of churchproperty disputes by adopting express trust provisions in favor of the general church—a step that the
Court thought would impose only a minimal burden.
Jones, 443 U.S. at 606. But that has not been amici’s
experience. Some courts have interpreted the neutral-principles approach to require a denomination’s
trust clause to meet the formalities of state law,
flouting the deference demanded by the First
Amendment. Denominations that rely on trust clauses have been substantially burdened by the
inconsistency and unpredictability of how courts in-

8
terpret their trust clauses in resolving property disputes.
A.

The Split of Authority Affects All
Churches, Including Amici.

The Texas Supreme Court’s refusal to enforce the
Episcopal Church’s express-trust provision deepened
an existing split of authority on whether courts
should give effect to the “Dennis Canon.” See Pet. for
Writ of Cert., No. 20-536, at 17–22. But the impact of
the decision below extends well beyond the property
dispute it resolved. The differing approaches to interpreting express-trust provisions have also led
courts to take conflicting positions on other churches’
express-trust provisions, including those of the denominations of two amici. And all amici are affected
by the decision because courts’ application of the
neutral-principles approach in property disputes can
influence the resolution of other intra-denomination
disputes.
1. Like the Episcopal Church, the denominations
of two amici—the Presbyterian Church (U.S.A.) and
The United Methodist Church—have express-trust
provisions that have been the subject of litigation in
numerous state courts. That litigation has also led to
conflicting decisions on whether the provisions are
enforceable.
In 1983, four years after Jones, the Presbyterian
Church (U.S.A.) added a trust clause to its constitution, explicitly codifying the church’s longstanding
view that “[a]ll property held by or for a particular
church, a presbytery, a synod, the General Assembly,
or the Presbyterian Church (U.S.A.) . . . is held in
trust nevertheless for the use and benefit of the

9
Presbyterian Church (U.S.A.).” PRESBYTERIAN
CHURCH (U.S.A.), BOOK OF ORDER, G-8.0201 (today
found at G-4.0203). Despite the clarity of this provision, courts have not consistently enforced it.
Some state courts have declined to enforce the
trust on the ground that it is insufficient to create a
valid trust under that state’s law. For example, the
Supreme Court of Mississippi held that, under Mississippi law, “no express or implied trust existed”
between the national denomination and the local
church because the deeds for the local property
lacked the requisite trust language and because no
separate trust instrument existed in writing. Presbytery of St. Andrew v. First Presbyterian Church
PCUSA of Starksville, 240 So. 3d 399, 406 (Miss.
2018). That decision is not an outlier. Intermediate
appellate courts across the country have also ruled
against the Presbyterian Church (U.S.A.) in property
disputes because its trust clause did not meet the requirements of their particular state’s laws. 2
In contrast, other state courts have given effect to
this trust provision. Some courts have enforced the
trust by affording broad deference to the church’s
right to control its property, while others have enforced the provision only after determining that it
satisfies state law. For example, the Supreme Court
See, e.g., Heartland Presbytery v. Gashland Presbyterian
Church, 364 S.W.3d 575 (Mo. Ct. App. 2012); Colonial Presbyterian Church v. Heartland Presbytery, 375 S.W.3d 190 (Mo. Ct.
App. 2012); Carrollton Presbyterian Church v. Presbytery of S.
Louisiana of Presbyterian Church (USA), 77 So. 3d 975 (La.
App. 1 Cir. 2011); cf. Windwood Presbyterian Church, Inc. v.
Presbyterian Church (U.S.A.), 438 S.W.3d 597 (Tex. App. 2014).

2

10
of Georgia has given appropriate regard to the denomination’s trust clause in resolving a churchproperty dispute. See Presbytery of Greater Atlanta,
Inc. v. Timberridge Presbyterian Church, Inc., 719
S.E.2d 446 (Ga. 2011). According to the court, “the
fact that a trust was not created under our state’s
generic express (or implied) trust statutes does not
preclude the implication of a trust on church property under the neutral principles of law doctrine.” Id.
at 454. 3 Rather than looking to state law, the court
focused on “the specific language of the governing
documents adopted by the local and general churches,” id. at 458, and the fact that the local church
decided to affiliate with the Presbyterian Church
(U.S.A.) after its Book of Order contained the trust
clause, see id. at 456. The Supreme Court of Oregon
reached the same result, but it did so only after scrutinizing the trust provision under Oregon law,
including the state’s rules on indicating intent to
create a trust and on the revocability of a trust. See
Hope Presbyterian Church of Rogue River v. Presbyterian Church (U.S.A.), 291 P.3d 711, 722–27 (Or.
2012).
The United Methodist Church finds itself in a
similar position. Its trust clause has been included in
The court observed that if a hierarchical denomination were
required to fully comply with Georgia’s generic express trust
statute, then an “enormous number of deeds and corporate
charters would need to be examined and re-conveyed or amended; the burden on the parent churches, the local churches that
formed the hierarchical denominations and submitted to their
authority, and the free exercise of religion by their members
would not be minimal but immense.” Id. at 453.

3

11
the church’s Book of Discipline since at least 1797,
and its language is crafted from the explicit instructions of John Wesley, the founder of the Methodist
movement. 4 The current version of the trust provides
that “titles to all real and personal, tangible and intangible property held at general, jurisdictional,
annual, or district conference levels, or by a local
church or charge . . . shall be held in trust for The
United Methodist Church and subject to the provisions of its Discipline.” THE BOOK OF DISCIPLINE OF
THE UNITED METHODIST CHURCH ¶ 2501 (2016). 5
This trust provision has also generated conflicting
decisions regarding its enforceability. For example,
the Supreme Court of Alabama declined to enforce
this trust provision in a church-property dispute. See
Haney’s Chapel United Methodist Church v. United
Methodist Church, 716 So. 2d 1156 (Ala. 1998). But
the Supreme Court of Delaware and the Supreme
Court of Alaska both ruled in favor of the national
denomination in similar disputes. See St. Paul
Church, Inc. v. Bd. of Tr. of Alaska Missionary Conference of United Methodist Church, Inc., 145 P.3d
541 (Alaska 2006); E. Lake Methodist Episcopal
Church, Inc. v. Tr. of Peninsula-Delaware Annual
Conference of United Methodist Church, Inc., 731
A.2d 798 (Del. 1999).
See Gen. Council on Fin. and Admin., The Trust Clause: Questions And Answers For United Methodists, THE UNITED
METHODIST CHURCH 2, https://www.gcfa.org/media/1444/trustclause-brochure.pdf.
4

The Book of Discipline also sets forth specific trust language
to be included in all local church property deeds. See id. at ¶
2503(2)–(3), (6).

5

12
2. While not all amici rely on trust clauses, all are
affected by the decision below and the experiences of
the Presbyterian Church (U.S.A.) and The United
Methodist Church. That is because the reasoning of
these decisions has not been confined to propertydispute cases. That non-deferential approach, under
the guise of applying “neutral principles,” also dictates how many courts decide other issues relating to
church governance.
Courts have also split on whether to defer to a religious denomination’s choice regarding who governs
or represents the denomination and whether a contested faction is considered part of the denomination.
See Pet. for Writ of Cert., No. 20-536, at 25–29.
These questions involve subjective doctrinal judgments and implicate important religious, spiritual,
and polity questions. Jones’s pronouncement that
courts must “defer to the resolution of issues of religious doctrine or polity by the highest court of a
hierarchical church organization,” 443 U.S. at 602, is
equally important to these inquiries. 6

Irrespective of the trust clause, Jones was remanded to determine which faction in a divided church should be recognized
as the true church. See 443 U.S. at 608 (noting that “there are
at least some indications that under Georgia law the process of
identifying the faction that represents the Vineville church involves considerations of religious doctrine and polity”). Here,
the Episcopal Church asserted that the true church was the
group affiliated with it, and All Saints voted to remain affiliated
with the Episcopal Church. See Pet. for Writ of Cert., No. 20534, at 10. The court below incorrectly ignored that church’s
views, even though these determinations raise questions of
identity, connection, and theology.

6

13
Many courts have followed this precept, holding
that courts must defer to a church’s determination
regarding its own hierarchy and leadership, even if
that determination contradicts state law. 7 Yet many
other courts have taken a different approach, interpreting Jones to allow extensive inquiry into
religious polity through the purported neutralprinciples approach. 8
A case involving amicus the General Synod of the
Reformed Church in America’s denomination provides a good example. See Classis of Cent. California
v. Miraloma Cmty. Church, 99 Cal. Rptr. 3d 449
(Cal. Ct. App. 2009). In that case, a California court
invoked Jones to apply the neutral-principles approach to determine whether a local congregation
had properly disaffiliated from the church. Id. at 456.
In so doing, the court explained that “[a]lthough this
appeal does not involve issues of title to or ownership
of property, the same rationale for applying neutral
principles of civil law [from Jones] should apply to
See, e.g., Harris v. Matthews, 643 S.E.2d 566, 571 (N.C. 2007)
(declining to review denomination’s internal governance dispute
because “in order to address plaintiffs’ claims, the trial court
would be required to interpose its judgment as to both the proper role of these church officials and whether each expenditure
was proper in light of Saint Luke’s religious doctrine and practice. . . . This is precisely the type of ecclesiastical inquiry courts
are forbidden to make.”).

7

See, e.g., Aldrich ex rel. Bethel Lutheran Church v. Nelson ex
rel. Bethel Lutheran Church, 859 N.W.2d 537, 541 (Neb. 2015)
(holding that court could review local church’s decision to leave
the larger denomination because “the issue presented by this
litigation can be decided by examining state statutes and
church governance and other relevant documents and using
neutral principles of law”).
8

14
nonecclesiastical issues of organizational governance.” Id. Although the court ultimately reached the
correct conclusion under Reformed Church doctrine,
it did so only after disregarding principles of deference and conducting an extensive inquiry into
Church polity. Id. at 459 (“[I]n construing the corporate documents we may also refer to the national
church’s constitution, canons and the like.”).
As this case illustrates, courts have strayed from
the deferential standard demanded by the First
Amendment, leaving amici to deal with the consequences of inconsistent decisions. The Court’s review
is urgently needed.
B.

The Question Is Important Because
It Impacts Beliefs Fundamental to a
Denomination’s Identity.

In Jones, the Court suggested that churches could
effectively contract out of the new neutral-principles
approach by adopting express-trust provisions. See
443 U.S. at 606. This approach would not violate free
exercise rights, in the Court’s view, because it would
not be burdensome. Id. Four decades of experience
have shown otherwise. For churches, trust provisions
are not merely another boilerplate covenant to include in their constitutions. They reflect beliefs
fundamental to a denomination’s identity, structure,
polity, religious teachings, and doctrine. And courts’
unwillingness to enforce those trust provisions significantly interferes with free exercise rights.
When amicus the Presbyterian Church (U.S.A.)
added a trust clause to its constitution, it did so by
codifying the Church’s traditional position on ownership of church property. The Church explained that

15
it had incorporated a trust clause in its Book of Order to safeguard its “understanding of the church as
a communion of saints across time, with responsibilities both to those who came before and those who
will follow.” 9 Put another way, the trust clause protects the Church’s “theological conviction that this
denomination constitutes one indivisible body, which
itself is part of the body of Christ, and which encompasses not only the visible Church today but also the
one, holy, catholic, and apostolic Church of our heirs
and forbearers.” 10
Similarly, the trust clause used by The United
Methodist Church has existed for centuries and traces its roots back to John Wesley. 11 The Church
believes in the principle of “connectionalism,” which
it defines as “the principle that local churches in
[the] denomination do not ‘stand alone’ but are ‘connected together.’” 12 In practice, this principle means
that United Methodist pastors are not assigned to a
particular church for their entire career, but instead
move from church to church by appointment from the
area bishop. 13 It also means that United Methodists
can go into any one of the denomination’s 33,000 loAdvisory Opinion: The Trust Clause and Gracious Separation:
Implementing the Trust Clause for the United of the Church,
PRESBYTERIAN
CHURCH
(U.S.A.)
1
(2014),
https://www.pcusa.org/site_media/media/uploads/oga/pdf/adviso
ry-opinion_19.pdf (internal quotation marks omitted).
9

10

Id. at 2.

11

See Gen. Council on Fin. and Admin., supra note 4, at 2.

12

Id.

13

See id.

16
cal churches in the United States and find a community of faith that shares the same central
principles. 14 The trust clause not only furthers the
connectionalism principle, it is “indispensable to the
fundamentally connectional character of The United
Methodist Church.” 15 As the Church has stated,
“through the trust clause, we truly become United
Methodists, all bound together with a common vision
and mission in the service of our Lord.” 16
Decisions applying Jones’s neutral-principles approach to resolve non-property governance issues
also impinge on beliefs fundamental to a denomination’s identity. Contrary to many lower courts’
determinations, issues of organizational governance
and membership are far from “nonecclesiastical.”
Classis of Cent. California, 99 Cal. Rptr. 3d at 456.
Instead, they are precisely the type of questions denominations should and do decide for themselves.
Consider again the litigation involving amicus the
General Synod of the Reformed Church in America.
See supra p. 13. The court resolved the dispute by
reference to the governance provisions set forth in
the Reformed Church in America’s Book of Church
Order. See Classis of Cent. California, 99 Cal. Rptr.

14

See id.

15 Kathy L. Gilbert, United Methodist trust clause: Critical amid
struggle? UNITED METHODIST NEWS SERVICE (Feb. 4, 2019),
https://www.umnews.org/en/news/united-methodist-trustclause-critical-amid-struggle.
16

Gen. Council on Fin. and Admin., supra note 4, at 3.

17
3d at 457. 17 But those provisions derive from, and
expressly incorporate, religious doctrine and practice. 18 They are fundamental to amicus’s religious
autonomy and practice, and should not be subject to
state interference.
In short, courts that adjudicate intra-church disputes by purporting to apply neutral principles do
not simply resolve disagreements without touching
on ecclesiastical matters. Because those governing
documents are drafted to reflect the church’s core beliefs, a court’s interpretation of those documents
necessarily affects the church’s free exercise rights.

See also The Reformed Church in America, BOOK OF CHURCH
ORDER, https://www.rca.org/about/government/book-of-churchorder.
17

18 See id. § 1 (providing that “[t]he classis [higher church body]
shall have the authority to supersede a consistory [local leadership] in the administration of a local church when, in its
judgment, there are conditions in that church which make it
unable to fulfill the functions of a local church as these are defined by the classis. Such conditions shall include . . . [i]nability
to provide adequate ministerial services.”); id. § 6 (“The classis
shall have the authority to reconstitute the consistory of a
church when, in the judgment of the classis, sufficient growth
has been achieved or suitable stability created so that the
church can continue ministry without classis administration.”);
id. § 4 (“If the classis shall then determine that it is in the best
interest of Christ’s Kingdom that the church be allowed to
withdraw from the denomination, and to retain all or part of its
real and personal property free from any claim on the part of
the denomination or any assembly, board or agency thereof, it
shall then so declare and proceed promptly to assist the consistory of the church in (1) dissolution of the relationship of the
church to the denomination, and (2) transfer of its property to a
church of another denomination.”).

18
II.

The Court Should Reconsider the Neutral-Principles Approach.

The Court should also grant the petitions to reconsider or clarify Jones’s neutral-principles
approach to ensure that it sufficiently protects the
First Amendment rights of churches and their members.
The Court’s decision in Jones is out of step with
the rest of the Court’s First Amendment religion cases. A long line of cases—decided both before and
after Jones—have protected First Amendment rights
by “severely circumscrib[ing] the role that civil courts
may play” in intra-church disputes. Presbyterian
Church in U.S. v. Mary Elizabeth Blue Hull Mem’l
Presbyterian Church, 393 U.S. 440, 449 (1969). Jones
marks an unwarranted departure from that line of
cases.
The Court first held that courts should defer to a
church’s decision on ecclesiastical matters in Watson
v. Jones, 80 U.S. 679 (1872). Although the Court did
not rely on the First Amendment, it acknowledged
that judicial review of ecclesiastical decisions was a
threat to religious liberty. As the Court observed, if
the “validity of ecclesiastical decrees would be determined in the civil court,” courts would “deprive
these bodies of the right of construing their own
church laws.” Id. at 733. Moreover, courts should not
review questions “of discipline, or of faith, or ecclesiastical rule, custom, or law [that] have been decided
by the highest of these church judicatories,” because
courts are not “as competent in the ecclesiastical law
and religious faith of all these [church] bodies.” Id. at
727, 729. Rather, ecclesiastical bodies are “the best

19
judges of what constitutes an offence against the
word of God and the discipline of the church.” Id. at
732.
In the decades before Jones, the Court reaffirmed
Watson’s deferential approach and recognized the
important role that the First Amendment plays in
protecting the church’s liberty to decide issues involving its religion. The Court described Watson as
“radiat[ing]” “a spirit of freedom for religious organizations, an independence from secular control or
manipulation, in short, power to decide for themselves, free from state interference, matters of
church government as well as those of faith and doctrine.” Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church in N. Am., 344 U.S. 94, 116 (1952).
The Court continued to warn about the “hazards” of
courts adjudicating church-property disputes, including the risk of “inhibiting the free development of
religious doctrine and of implicating secular interests
in matters of purely ecclesiastical concern.” Presbyterian Church in U.S., 393 U.S. at 449.
The Court took a different approach in Jones. Despite acknowledging that “the First Amendment
prohibits civil courts from resolving church property
disputes on the basis of religious doctrine and practice,” the Court did not require courts to continue
deferring to a church’s own decisions. Id. at 602 (internal citations omitted). Instead, the Court allowed
states to “adopt any one of various approaches for
settling church property disputes so long as it involves no consideration of doctrinal matters, whether
the ritual and liturgy of worship or the tenets of
faith.” Id. (emphasis added). Under this “neutral
principles” approach, deference to the “authoritative

20
ecclesiastical body” would occur only if “the interpretation of the instruments of ownership would require
the civil court to resolve a religious controversy.” Id.
at 604.
The Court has not extended Jones’s neutralprinciples approach to all cases involving review of
churches’ internal decisions. The Court’s recent ministerial-exception cases demonstrate that point. See,
e.g., Hosanna-Tabor Evangelical Lutheran Church &
Sch. v. E.E.O.C., 565 U.S. 171, 195 (2012); Our Lady
of Guadalupe Sch. v. Morrissey-Berru, 140 S. Ct.
2049, 2055 (2020). In Hosanna-Tabor, for example,
the Court relied on Watson—not Jones—to hold that
courts must defer to “a church’s determination of
who can act as its ministers.” 565 U.S. at 185. And
just last Term, the Court again invoked Watson—not
Jones—to reiterate that “the Religion Clauses” require courts to respect “the general principle of
church autonomy,” which includes “independence in
matters of faith and doctrine and in closely linked
matters of internal government.” Our Lady of Guadalupe Sch., 140 S. Ct. at 2061.
Especially in light of these recent decisions,
Jones’s neutral-principles approach has become even
more of an outlier in the Court’s Religion Clause jurisprudence. That might not be enough of a reason to
reconsider the neutral-principles approach if Jones
had correctly predicted that it would cause only “occasional problems in application.” 443 U.S. at 604.
But that prediction has not come true. As discussed
above, see supra Part I, Jones’s neutral-principles
approach has generated much confusion in the lower
courts. The result has been that too frequently courts
have refused to defer to the church’s resolution of its

21
own internal disputes. The Court should grant the
petitions and reaffirm that the First Amendment
demands that courts defer to a church’s decision regarding property disputes and other matters of
governance and membership.
CONCLUSION
For the foregoing reasons, the petitions for a writ
of certiorari should be granted.

22
Respectfully submitted,
Rev. Dr. J. Herbert Nelson, II
GENERAL ASSEMBLY OF THE
PRESBYTERIAN CHURCH
(U.S.A.)
100 Witherspoon Street
Louisville, KY 40202
Stated Clerk of Amicus Curiae General Assembly of the
Presbyterian Church (U.S.A.)
Paul Karssen
GENERAL SYNOD OF THE REFORMED CHURCH IN AMERICA
612 8th Street, S.E.
Orange City, IA 51041
Counsel for Amicus Curiae
General Synod of the Reformed Church in America
Bryan Mills
GENERAL COUNCIL ON FINANCE AND ADMINISTRATION
OF THE UNITED METHODIST
CHURCH
1 Music Circle N.
Nashville, TN 37203
Counsel for Amicus Curiae
General Council on Finance
and Administration of The
United Methodist Church

November 23, 2020

Mark W. Mosier
Counsel of Record
Nicole Antoine
Kathleen Choi
Sarah Suwanda
COVINGTON & BURLING
LLP
850 Tenth Street NW,
Washington, DC 20001
(202) 662-6000
mmosier@cov.com
Counsel for Amici Curiae
Richard Ellis Santee, Jr.
MORAVIAN CHURCH IN
AMERICA
44 East Broad Street
Bethlehem, PA 18018
Counsel for Amicus Curiae Moravian Church in
America
Heather E. Kimmel
GENERAL SYNOD OF THE
UNITED CHURCH OF
CHRIST
700 Prospect Avenue East
Cleveland, OH 44115
Counsel for Amicus Curiae General Synod of the
United Church of Christ

